      /","




Department of Health and Human Services

        OFFICE OF

   INSPECTOR GENERAL





SURGERY IN OUTPATIENT SETTINGS:

         FORMS OF OVERSIGHT





              , SERVIC'



                          Richard P. Kusserow
                          INSPECTOR GENERAL

             ItJrdi/a
                               APRIL 1992
                        OFFICE OF INSPECTOR GENERA


The mission of the Office of Inspector General (OIG), as mandated by Public Law 95- 452 , as
amended , is to protect the integrity of the Department of Health and Human Services ' (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits , investigations , and
inspections conducted by three OIG operating components: the Office of Audit Services , the
Office of Investigations ,   and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program , and management problems , and recommends courses to
correct them.

                              OFFICE OF AUDIT SERVICES
The OIG' s Office of Audit Services (OAS) provides all auditing services for HHS , either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective   responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste , abuse , and
mismanagement and to promote economy and efficiency throughout the Department.

                              OFFICE OF INSTIGATIONS
The OIG' s Office of Investigations (01) conducts criminal , civil , and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions
administrative sanctions , or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

                 OFFICE OF EVALUATION AN INSPECTIONS
The OIG' s Office of Evaluation and Inspections (OEI) conducts short- term management and
program evaluations (called inspections) that focus on issues of concern to the Department
the Congress ,and the public. The findings and recommendations contained in these inspection
reports generate rapid , accurate , and up- to- date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared under the direction of Don McLaughlin , the Regional Inspector
General for the Office of Evaluation and Inspections , and Jim Wolf, Deputy Regional
Inspector General , Office of Evaluation and Inspections , Region VII. Participating in this
project were the following people:

        Kansas City                                     Headquarters
        Hope Hartshorn , Project Leader                 Cathaleen A. Ahern , Program Specialist
        Hugh Owens , Team Leader
        Perry Seaton , Team Leader
Department of Health and Human 
                                Servces
               OFFICE OF

          INSPECTOR GENERAL





SURGERY IN OUTPATIENT SETTINGS:

                       FORMS OF OVERSIGHT





                           to"
                            .. SERVIC'~o



                                           Richard P. Kusserow
                                           INSPECfOR GENERA
                          ~/tdi/a              OEI-07-91-0090
                        EXECUTIVE SUMMAR 

PUROSE
The purpose of this study is to determine the forms and extent of oversight for
freestanding outpatient facilties in which surgery is performed.

BACKGROUN
An increasing number of surgical procedures that were once performed in an acute
care settng are now being performed in outpatient facilities. This shift in setting is
due in part to advances in medical technology and the lower cost of outpatient care.
This shift has raised concerns about the appropriateness of the setting and the quality
of care. The House of Representatives Small Business Subcommittee on Regulation
Business Opportunities , and Energy requested this study.

Surgery can be defined by the invasiveness of a procedure and/or the level of
sedation/anesthesia required. The definition of surgery varies widely among the
agencies , boards , and organizations involved in oversight.

The forms of oversight in place for outpatient facilities include licensure , certification
and accreditation. Licensure of facilities is performed by individual State health
facilty licensure agencies. Certification is carried out by the Health Care Financing
Administration (HCFA). Certification is required for certain tyes of facilties to
receive Medicare reimbursement. Accreditation is performed by private accreditation
associations and is usually voluntary on the part of the facilty. Other forms of
oversight are provided by peer review organizations (PROs), insurance companies , and
professional medical organizations.

METHODOLOGY

We contacted various regulatory bodies , as well as others that might playa role in the
oversight of outpatient surgical facilities. We received data from most of these
sources. Our analysis of the data focused on standards that promote quality of care in
a health care setting. This information was compiled into tables for the appendices of
the report.

Our review was conducted in accordance with the      Interi Standrds for   Inspectins
issued by the President s Council on Integrity and Efficiency.

A companion study, " Surgery in Outpatient Settings: A Four- State Study
(OEI 07- 91- 01470), is being released concurrently with this report. This inspection
determined the tyes of surgical procedures which are commonly performed in
outpatient settings in four States and the extent to which such outpatient settings are
subject to licensure or accreditation.

                                                                                            - - -




FIINGS
MA FACILIES AR             NOT SUBECT TO liCENSURE
       Ten States do not license ambulatory surgical centers (ASCs).

       Twenty- two States do not license birthing centers.

       Twenty-six States do not license abortion clinics.

       Forty- two States do not license emergency centers.

mE LICENSURE STANARS THT EXST                      VARY FROM STATE TO STATE

Licensure standards include legal limits on procedures , peer review, training for
ancilary personnel , written transfer agreements , a minimum staffing requirement , and
medical records. Other standards include infection control procedures , presence of
emergency equipment and personnel trained in emergency procedures , anesthesia
administration , and equipment maintenance. These standards vary greatly from State
to State.



ACCREDITATION, CERTIICATION,              AN PEER REVIEW PROVIE ANOmER
FORM OF OVERSIGHT

Accreditation associations apply a set of separate standards which are usually more
stringent than the licensure agencies require. However, accreditation is usually
voluntary on the part of the facilty.

Certification requires that a facility meet certain specific requirements in order to
display recognition that they meet the standards of the Medicare program. Once
certified , a facility is eligible to receive reimbursement for care provided to Medicare
beneficiaries. Only certain tyes of facilities are certified (such as ASCs) and not all
of the facilities in each category are certified (Le. not all ASCs are certified).

The Peer Review Organizations (PROs) conduct pre-procedure review for some tyes
of procedures in outpatient settings such as ASCs and health maintenance
organizations. We are currently conducting an inspection that addresses the role of
PROs in an outpatient setting.

mERE IS      LIE OR NO OVERSIGHT FOR PHYSICIAS' OFFICES
The State health facility licensure agencies do not license physicians ' offices. State
medical and podiatry boards regulate a physician s practice through control of the
physician s license. The State medical and podiatry boards do not address setting
when granting licenses to practitioners. 



                                             ii.
                                                                                                                           . . . . . . . . . . . ... .... .. .. . ..
                                                        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
                                                                                                                              . . . .
                                                                                                                                    . .. .. .. .. .. . . . . . .. . ....




                                                            TABLE OF CONTENTS

EXECU SUMY
INODUCTON
  Purpose. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

  Background

  Methodology                                                                                                                          ...............5
FIINGS
  Many facilities are not subject to licensure . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

  The licensure standards that exist vary from State to State . . . . . . . . . . . . . . . . 7

  Accreditation , certification , and peer review provide
  another form of oversight. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .




  There is little or no oversight                                                            for physicians '   offices


APPENDICE
  Definitions of surgery. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A­

  1989 Part B Medicare Annual Data (BMA) selected procedures
  and number of procedures performed in each setting . . . . . . . . . . . . . . . . .. B-

  Types of facilities and the number of State health facilty licensure
  agencies that license each. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. C-

  State health facility licensure agencies standards for licensure . . . . . . . . . . . . D-

  State medical and osteopathic boards standards for licensure                                                                           . . . . . . . . . . .. E-
  State podiatry boards standards for licensure                                                                   . . . . . . . . . . . . . . . . . . . . . . .. F-
  Accreditation association standards. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . G-

  Additional accreditation association standards. . . . . . . . . . . . . . . . . . . . . . . . H­
                          INTRODUCTION

PUROSE
The purpose of this study is to determine the forms and extent of oversight for
freestanding outpatient facilties in which surgery is performed.

BACKGROUN
An increasing number of surgical procedures that were once performed in an acute
care setting are now being performed in outpatient facilities. This shift in setting
due in part to advances in medical technology and the lower cost of outpatient care.
This shift has raised concerns about the appropriateness of the setting and the quality
of care. One concern is the lack of oversight for most tyes of outpatient surgical
facilities. Another concern is that some surgical procedures may be inappropriate for
an outpatient setting due to the high- risk nature of the procedure. Examples of high-
risk procedures in outpatient facilities might include orthopedic procedures such as
ankle fusions and triple arthrodesis , abortions , liposuction procedures , laparoscopy,
hernia repair , radical mastectomies , some tyes of plastic surgery, and some tyes of
eye surgery.

The House of Representatives Small Business Subcommittee on Regulation, Business
Opportunities , and Energy requested this study.

No Uniform Defitin     of Surer
Surgery is difficult to classify because several criteria can be used to define it. Surgery
can be defined by the invasiveness of a procedure and/or the level of
sedation/anesthesia required.

The Medicare Carrier Manual definition of surgery is very general and includes the
terms incision , excision , repair , suture , destruction , introduction , fracture
manipulation , dislocation , amputation , and endoscopy in the definition.

The definition of surgery varies widely among the agencies , boards , and organizations
involved in oversight. These definitions are contained in Appendix A.

Overv of Outit          Faci
Ambulatory surgical centers (ASCs) and outpatient hospital settings are capable
conducting " major " surgical procedures such as cardiac or vascular catheterization
trauma care , and hernia repair. According to SMG Marketing, a major marketing
report firm, the number of procedures performed in ASCs increased more than 100
percent from approximately 1 milion in 1986 to approximately 2. 2 millon in 1989.
The most commonly performed procedures in ASCs are ophthalmological procedures;
gyecological surgery; ear , nose , and throat procedures; and orthopedic surgery.
These make up 65. 6 percent of all surgeries performed in ASCs.

Other outpatient settings , including physician s offices , are sites for relatively " minor
surgical procedures. Examples of minor surgery include suturing small wounds
performing skin biopsies , and drawing blood. The Part B Medicare Annual Data
(BMA) uses the Medicare Carrier Manual' s definition of surgery that is listed on
page one. According to BMA , the number of surgeries performed in physicians
offices increased 39 percent from approximately 21.6 milion in 1986 to approximately
30. 0   milion in 1989.


Selected medical procedures and the number of procedures performed in various
medical settings based upon 1989 Part B Medicare Annual Data are contained in
Appendix B.

Type of    Faci and Exmple of Predes
We have classified the tyes of outpatient surgery as minor procedures and major
procedures. Minor procedures include cleaning and suturing small wounds , drawing
blood , inserting IV' , performing electromyograms , etc. Major procedures include
hernia repair , cardiac catheterization , trauma care , vascular catheterization , etc.

Table 1 on the following page gives tyes of outpatient facilities and examples of
procedures normally performed in each.
                                               Table 1




                      Typs of Facities and Exples of Procdures         Performed


 Faci                                          Mior Procure                   or Procdure

 Ambulatory health care clinic

 Ambulatory surgical center
 Birthing center
 Health maintenance

 organization (HMO)
 Urgent/immediate care center
 Cancer treatment center
 Cardiac catheterization lab
 Emergency center
 Home health care agency
 Independent clinical lab 




 Abortion clinic
 Diagnostic imaging center
 Office surgery center
 Physician s office

Form of Overght

The principal forms of oversight in place for outpatient facilities which perform
surgery are licensure , certification , and accreditation. For our purposes , a license
implies that a facilty or person has met certain specific requirements and has been
granted permission to provide servce. Licensure , when it exists , is required rather
than voluntary, and falls under the jurisdiction of State health facilty licensure
agencies. Certification of a facility involves meeting certain specific requirements in
order to be reimbursed by the Medicare program. The HCFA certifies certain tyes
of facilties. If a facilty     chooses not to seek certification , physicians can stil be   paid
for professional servces rendered there , but the facilty will not receive a fee.
Accreditation involves meeting standards set forth by an accreditation association.
Accreditation is usually voluntary on the part of the facility, and occurs after licensure.
Accreditation does not take the place of licensure or certification , but may act as a
supplement or grounds on which to certify.
Other forms of oversight are provided by peer review organizations (PROs), insurance
companies , and professional medical organizations.

The PROs review the quality of medical servces provided to Medicare beneficiaries in
certain settings such as ASCs. They playa role in the internal quality assurance of
ASCs by reviewing samples of cases and procedures.

The current Scope of Work, as defined ' in the PROs ' contract with HCFA, does not
require a review of the servces provided in a physician s office. However, HCF A
does have contracts for two pilot projects currently in progress which address peer
review of servces provided in a physician s office. The Delmarva Foundation
(Maryland PRO) is working on a pilot project with two PROs which will review        the
care that physicians provide in an office setting. This is a three year project that
started September 1 , 1990. The other project , The Wisconsin Ambulatory Review
Project (WARP), involves seven PROs. This project will develop and assess a system
for monitoring the quality and cost effectiveness of ambulatory medical care for office-
based practices. The WARP began December 1 , 1989 and was scheduled to last for
two years. The contract for this has been extended through November of 1992.

Insurance companies provide a form of oversight through underwting
malpractice/liabilty insurance for individual physicians and/or facilities. We contacted
a major insurance company that has general criteria for insuring physicians and
facilties. The insurance company s coverage criteria included information about
training, structure of the organization , staffing, servces provided , licensing, practice
restrictions , hospital privileges , jurisdiction of practice , risk management program
(mainly for facilties), information on the physical plant , emergency procedures in
place at day surgery centers , and claim information. There are specific criteria for
determining insurability for surgical procedures. For physicians these criteria included
training, specialty, and servces performed. For facilties these criteria included staff
(tyes of professionals and their expertise), equipment, training, and risk management
in relation to the servces provided.

Professional medical organizations may be a certifying body (for a specific branch of
medicine) or they may be a membership body. The six professional medical
organizations that we contacted have a set of ethical standards for members. Five
the organizations have educational guidelines for their members. Three of the
professional organizations have an informal relationship with PROs and two of these
organizations also have an informal relationship with State boards. None of the
professional organizations perform a direct monitoring or oversight role. One
organization indirectly provides oversight through its requirement for continuing
medical education. Four of the organizations have received patient complaints and
took action on them.
METHODOLOY
We contacted every State health facility licensure agency and every State medical
osteopathic , and podiatry board. We contacted three accreditation associations: the
Joint Commission on Accreditation of Healthcare Organizations (JCAHO), the
Accreditation Association for Ambulatory Health Care (AAC), and the
Accreditation Association for Podiatric Surgical Facilities (AASF). We contacted five
PROs: California Medical Review, Inc. , the Florida Professional Foundation for
Health Care , Louisiana Health Care Review, Rhode Island Health Care Review, Inc.
and the Wisconsin Peer Review Organization. In addition , we contacted six
professional medical organizations: the American Academy of Family Physicians , the
American Board of Podiatric Surgery, the American Board of Surgery, the American
College of Surgeons , the American Osteopathic Association , and the Association of
American Physicians and Surgeons. The insurance company that we contacted was
the St. Paul Fire and Marine Insurance Company, a major malpractice insurer.

We received data from most of the agencies, boards , and organizations. Our analysis
focused on standards that promote quality of care in a health care setting. These
included review of State health facility licensure requirements , review of State medical
and podiatry board requirements for licensure of physicians and podiatrists , and review
of accreditation association requirements for accreditation of outpatient facilities.

We contacted the primary health facility licensure agency in each State. Several States
have different departments or offices within the agency or State government that
provide licensure.

We analyzed narrative responses and the rules and regulations from the States.
conducted discussions with staff members of appropriate agencies , boards , and
associations. We also analyzed the responses from the professional medical groups
PROs , and the insurance company.

Our review was conducted in accordance with the 
   Intri Standrds    for Inspectins
issued by the President s Council on Integrity and Efficiency.

A companion study, " Surgery in Outpatient Settings: A Four- State Study
(OEI- 07-91- 01470), is being released concurrently with this report. This second study
determined the tyes of surgical procedures which are commonly performed in
outpatient settings in four States and the extent to which such outpatient settings are
subject to licensure or accreditation.

                                  FINDINGS

MA FACILIES AR                NOT SUBECT TO LICENSURE
Ten of the States do not license ASCs. Twenty- two    of the States do not license
birthing centers. Twenty-six of the States do not license abortion clinics. Forty- two of
the States do not license emergency centers (these facilities have the capabilty for
emergency life support and stabilzation). As reflected in Tables 1 and 2, all of the
facilities listed above conduct major procedures.

Several of the facility categories may not exist in all States. Some States do not
license certain facilties because there are so few of them. Classification of facilities
also differs among the States; i. e. one State may categorize a facilty as a birthing
center while a neighboring State may categorize it as an ASC.

                                         Table 2



     Typs of Freestadig Facities and Number of States That License Each

 Facity                                   Number of States That License

 Ambulatory surgical center *
 Home health care servce
 Birthing center *


 Abortion clinic *
 Independent clinical lab 




 Health maintenance organization
 Ambulatory health care clinic
 Emergency center *
 Cardiac catheterization lab *
 Urgent/immediate care center
 Cancer treatment center
 Diagnostic imaging center *
 Office surgery center

 Physician s office

     Facilities that perform Major Procedures

Additional information on State licensure is included in Appendix C.

mE LICENSURE STANARS THT EXST                       VARY FROM STATE TO STATE

There are a number of standards that promote quality of care in a health setting.
These standards are utilized by several State health facilty licensure agencies , medical
boards , and podiatry boards.

A particular standard may not apply to all tyes of facilities. The following is a
summary of the chief tyes of standards that exist.

       1.   Patit Complaints  - The State health facilty licensure agency requires the
       facilty to have a system to receive patient complaints in:

                31 of the 51 States.

       2.
         Leal Limits - Guidelines for care (including surgical procedures) in an
       outpatient setting are set by:

                46 of the 51 State health facility licensure agencies

                26 of the 63 State medical boards

                48 of the 50 State podiatry boards.



       Licensure agencies ,   State boards , accreditation associations , and insurance
      companies usually let the facilities set their own guidelines for procedures which
      would be performed in the facilty.

      3.  Peer  Rev   - The State health facilty licensure agency requires the facility
       to have some form of peer review as part of the internal quality assurance
       program in:

                34 of the 51 States.

      4.Training for   Anry   Personnl - The State health facilty licensure agency
      requires training and/or certification of ancilary personnel (i. e. lab technicians
       or nurses aides) in:

                41 of the 51 States.

      5.    Credtiling Proces - The State health facility licensure     agency requires
      each facilty to have a separate credentialing process. Each facility must review
      the education , training, and background of their professional personnel in:


                43 of the 51 States.
6.   Infectin Contrl Predes - The State licensure authorities require that
procedures to prevent the spread of infection are part of the daily operation of
an outpatient surgical facility. Training in infection control procedures is often
part of in-servce training and/or continuing education. Infection control
procedures are required by:

         41 of the 51 State health facilty licensure agencies



         28 of the 63 State medical boards

         26 of the 50 State podiatry boards.



The training and residency process for most physicians and podiatrists often
includes infection control procedures. For this reason , most medical and
podiatry boards do not cover this in the licensure process.

     Medical Training Standrd - The State licensure authorities have established
requirements for the education , training, and background for physicians    that
perform surgery in an outpatient setting in:

         45 of the 51 State health facility licensure agencies

         32 of the 63 State medical boards

         30 of the 50 State podiatry boards.



Licensure agencies ,   State boards , insurance companies , and accreditation
associations often let the facilities set up their own screening process for
physicians. The medical and podiatry boards do not address setting when
granting a permanent unrestricted license which is the most common tye of
license.

8.Transer Ageemt - The State health facility licensure agency requires a
written patient transfer agreement between the outpatient surgical facility and a
hospital in:

         43 of the 51 States.

9.   Minim Staff Reqemt - The State health facility licensure agency
requires the presence of an adequate number of specialized personnel in an
outpatient surgical facility during hours of operation in:

         44 of the 51 States.
       10. Emeen        Eqpmt and Trin Peronnl           - The State requires the
       presence of emergency equipment and personnel trained in emergency
       procedures to be on-site in an outpatient surgical facilty. Some State medical
       and podiatry boards require applicants for licensure to demonstrate knowledge
       of emergency procedures such as cardiopulmonary resuscitation. Emergency
       equipment and trained personnel are required by:

               44 of the 51 State health facilty licensure agencies



               24 of the 63 State medical boards

               19 of the 50 State podiatry boards.



       The training and residency process for most physicians and podiatrists usually
       includes a demonstration of knowledge of emergency procedures. For this
       reason , most medical and podiatry boards do not cover this in the licensure
       process.

       11.   Minim Record-Keeping Standrds         - The State health facility licensure
       agency requires the outpatient surgical facilty to have minimum record-keeping
       standards in:

               47 of the 51 States.

       12.Anethe Standrd - The State health facility licensure agency requires
       that trained personnel , such as an anesthesiologist , or certified registered nurse
       anesthetist who is under the supervsion of a qualified physician , administer
       anesthesia in:

               46 of the 51 States.

       13.
           Eqipmet Standrds - The State health licensure agency requires regular
       inspection of calibrated equipment such as x-ray machines in:

               44 of the 51 States.

Several States are now preparing legislation that will provide or increase oversight of
these outpatient facilties. One State has indicated that it has the legislative authority
to license facilities , but does not have adequate personnel or funding to carry out a
licensure program.

Additional information on the licensure standards of the various State agencies and
boards is included in Appendices D , E , and F.
ACCREDITATION, CERTIICATION,              AN PEER REEW PROVIE ANOmER
FORM OF OVERSIGHT

Accreditation associations apply a set of separate standards which are usually more
stringent than the licensure agencies require. However, accreditation is usually
voluntary on the part of the facilty.

The three accreditation associations that we contacted apply the thirteen standards
that promote quality of care in a health setting that are listed in the previous finding.

Additional information on the accreditation associations and the standards that they
apply is included in Appendix G.

Additional information on the accreditation associations ' policies for unannounced or
unscheduled visits and public release of information is included in Appendix H.

Certification requires that a facilty meet certain specific requirements in order to be
reimbursed by the Medicare program. Only certain tyes of facilties are certified
(such as ASCs) and not all of the facilties in each category are certified (Le. not all
ASCs are certified).

The PROs perform pre-procedure review for some tyes of procedures in outpatient
settings such as ASCs and HMOs. We are currently conducting an inspection that
addresses the role of PROs in an outpatient setting.

mERE IS LlIE OR NO OVERSIGHT FOR PHYSICIAS' OFFICES

The State health facilty licensure   agencies do not license physicians '   offices. State
medical and podiatry boards regulate a physician s practice through control of the
physician s license. The facility in which the physician practices may impose additional
restrictions upon the physician s practice. The State medical and podiatry boards do
not address setting when granting licenses to a practitioner.

The HCF A has established a list of covered surgical procedures for ASCs. The
HCF A reimburses ASCs based upon this list of covered procedures. There is no list
of this tye for physicians ' offices.

The PROs have no current authorization to review the care provided in a physician
office. We found that PRO review of physicians ' offices includes only the two
previously described pilot projects currently in progress.
                                 APPENDIX A

                                DEFIONS OF SURGERY
On of      the Thee   accreditation associations that we contacted had a definition
surgery.

           Surgical and Anesthesia Servces - those surgical or other invasive procedures
          for which patients receive general , spinal , or major regional anesthesia or
          sedation/analgesia either by intravenous , intramuscular , or inhalation methods
          that , in the manner used , may result in the loss of the patient's protective
          reflexes. Invasive procedures include , but are not limited to , percutaneous
          aspirations and biopsies , cardiac and vascular catheterizations , and
          endoscopies. "


On      insurance company s definition of surgery is:

           - No Surgery - no surgical procedures performed other than circumcisions
          incision of boils and superficial abscesses or suturing of skin and superficial
          fascia. Includes closed fractures of the  fingers and toes.
          - Assisting in Surgery - assisting in surgery on physician s own patients
          including closed bone fractures , except those of the finger and toes , and D&C'
          or vasectomies performed under local anesthesia.
          - All Other Surgery - includes operations in or upon any body cavity, including,
          but not limited to the cranium , thorax, abdomen , or pelvis; any other operation
          which , because of the condition of the patient or the length or circumstances of
          the operation presents a distinct hazard to life. It also includes: removal of
          tumors , open bone fractures , amputations , abortions , caesarean sections , the
          removal of any gland or organ , plastic surgery, tonsilectomies , adenoidectomies
          and any operations done using general anesthesia."


None     of the professional organizations that we contacted had a definition of surgery.


AU     of the PROs that we contacted had a definition of surgery.

           Surgery - (a. ) that discipline of health care delivery utilizing the knife , cautery,
          cryogenics , or chemicals ,   (b.   ) invasive procedures to remove , correct , or


          methods."
          faciltate the cure of a disease ,
                                          process , or injury, and (c. ) that branch of
          medicine which treats diseases , injuries , and deformities by manual or operative




                                                    A ­

             Surgery - all invasive procedures are considered surgery. Anything that can
            affect the diagnostic related groups (DRG) assignments. II

             Surgery - any procedure that changes the Medicare reimbursement rate.
            Certain procedures done would affect the DRG' s which would impact upon the
            Medicare reimbursement rate. Other procedures done would have no effect."

            Surgery - for outpatients , all surgery that has a CPT - 4 code and is also on
            HCF A' s list of covered surgical procedures.

             Surgery (outpatient) - anything that is on the HCF A list of covered procedures
            for ASCs. This may include procedures not normally considered to be surgery
            such as upper GI's , colonoscopy, and endoscopy. All cases are selected
            according to this list of procedures.


Seven of the 
    51 State health licensure agencies that we contacted had a definition      for
surgery.

             Surgery - treatment of human beings by a physician, by the use of one or more
           of the following procedures: cutting into any part of the body by surgical
           scalpel , electro-cautery, or some other means for diagnosis or removal of
           foreign bodies; reduction of fractures or dislocations of a bone , joint , or bony
           structure; repair of malformations or body defects resulting from injury, birth
           defects , or other causes that require cutting and manipulation or suture;
           instrumentation of the uterine cavity including the procedure commonly known
           as a D&C for diagnostic or therapeutic purposes; any instrumentation of or
           injection of any substance into the uterine cavity of a woman for the purpose of
           terminating a pregnancy; human sterilization procedures; or endoscopic
           procedures. "

            Surgery - treatment of conditions by operative means , involving incision or
           repair of human tissues.

            Surgery - ' oscopy ' procedures.. are considered ' surgical' procedures within the
           context of the ASC provision. Also , surgical procedures are commonly thought
           of as those involving an incision of some tye , whether done with a scalpel or
           (more recently) a laser , followed by removal or repair of an organ or other
           tissue:'

             Surgery - while recognizing that surgery may include some nonoperative
           modalities , in the context of these regulations surgical servce refers to the
           management of localized diseases and/or conditions by operative means which
           include peri-operative and operative treatment and the conditions outlined in
           Section 21.4 herein.



                                               A­
                Surgery - any manual or operative procedure performed upon the body of a
              living human being for the purpose of preservng health , diagnosing or curing
              disease , repairing injury, correcting deformity or defect, prolonging life or
              relieving suffering, and involving any of the following: incision , excision , or
              curettage of tissue or an organ; suture or other repair of tissue or an organ
              including a closed as well as an Qpen reduction of a fracture; extraction of
              tissue including the premature extraction of the products of conception from
              the uterus; or an endoscopic examination with use of a local or general
              anesthetic.

                Surgery - .. severing or penetrating of tissues of human beings.

               Surgery - pathological process for the surgical care shall be localized and not
              conducive to system disturbance.


Four of the         63 State medical and osteopathic boards that we contacted had a definition
of surgery.



               Surgery - to sever the tissues of the body for the purpose of penetration for
              treatment , replacement , or removal of afflcted parts. The simple piercing of
              the skin by the insertion of a solid wire or needle (acupuncture) not intended to
              separate or sever tissue for the purpose of treating by acupuncture is not
              surgery as term is used in the Healing Arts Act."



                Surgery (osteopathic) - the use of any and all methods in the treatment of
              disease , injuries , deformities , and all other physical and mental conditions in
              and of human beings , including the use of osteopathic manipulative therapy.

                Surgery - the diagnosis or treatment of or operation    or prescription for any
              human disease , pain , injury, deformity, or other physical or mental condition.

                Surgery - .. to penetrate , pierce , or sever the tissues of a human being...


Six of the 50        State podiatry boards that we contacted had a definition for surgery.

                Surgery - " .. to penetrate , pierce , or sever the tissues of a human being..

               Surgery - use of any cutting instrument to treat a disease , ailment , or condition
              of the human foot as defined herein , except that a podiatrist shall not be
              authorized to amputate the human foot , or perform any surgery on the human
              body at or above the ankle joint , or administer anesthetics other than local
              anesthetics. "




                                                   A­
 Surgery - practice of medicine and surgery means the diagnosis or treatment of
or operation or prescription for any human disease , pain , injury, deformity, or
other physical or mental condition.

Surgery - conditions that require operative procedures.

 Surgery - the surgical treatment of the foot , but shall not include the
amputation of foot or leg, surgery of the leg, or use of any anesthetic other
than local anesthetics , except that a podiatrist may administer narcotics and
medications in the treatment of ailments of the human foot and leg in the same
manner as a physician and surgeon.

Surgery - use of any cutting instrument to treat a disease , ailment , or
condition.




                                   A ­

                              APPENDIX 

                   ANAL DATA SELECfD PROCEUR
    1989 PART B MEICAR
     AN NUER OF PROCEDUR PERORMD IN EACH SETTG
                                                         Ambulatory
                         Hospita         Hospita          Surgica           Physician
 Procdure               Inpatient       Outpatient        Center              Ofce
 Incision and
 drainage                   700               600             200            666 800
 Skin biopsy                600               700             300            869 800
 Excise benign
 lesion                     700              000              900            880 200
 Excise
 malignant
 lesion                     200              700              600            302 200
 Debride nails              500              700              100             141 300
 Destruct lesion            500              900              100             505 000
 Arhrocentesis              600              200             200              878 900
 Total hip

 replacement *              000              100                                300
 Coronary artery
 bypass *                121 200                                                100
 Endoscopy               434 400          309 700             300                   700
 Colonoscopy             251 200          464 900              400           121 900
 Dilate urethra             200              600                             209 000
 Cataract
 removal                    900           709 900          166 900                  400

* The numbers      that are less than 2 000 have a very high percentage of error.
                 APPENDIX C



TYES OF FACILITIES AN   TH NUER OF STAlE HEALTH FACILIT
          LICENSUR AGENCIE     THT LICENSE EACH




                            C - 1

                                                                                          TYES OF FAOU AND TIlE NUMER OF STATE HEATH   FACl
                                                                                                   UCESU AGENCI THT UCESE EACH
TYES OF             FACl
Ambulntory Henlth Cnre
Oinic
Ambulatory Surgical        Conter
Birthing Center
He:llt'" Maintenance
Orgnniwtion
Urgent/Immediate C:uc

Center
Cancer     Tre:ltm    nt Cc:ntcr
Cardiac C::thetenZ3tion Lab
Emergency           nter
Home Health Care Agency
Independent Cli nical Lab
Abortion Clinic
Diagnostic rmaging Ce nter
Offce Surgery Center
Physici           Offce
         indicues the primary licensure agency in that State does license that typc of
         facility
         a blank indicate! the State does not license that type of facility or that tye   of
         facility does noc exist in the State
         indicmes there are conditions thnt relate to licensure of this fj-pe of facilry in a
         given State and the reader should refer to the enclosed (oOtnotes for gre:uer
         detnil
         indicates the licensure  lus of many or 311of the facilities in a given St:1tc :'re
         unclenr nnd the reader should refer to the enclosed foolDotes for grea.er demil
TYES OF FACI            AN TH NUER OF STATE HETH FACI

                  LICENSUR AGENCIE THT UCENSE EACH


TYES OF FACIIT                                         STATE



Ambulatory Health Care

Clinic
Ambulatory Surgical Center
Birthing Center
Health Maintenance
Organization
Urgent/lmmediate Care

Center
Cancer Treatment Center


Cardiac Catheterization Lab
Emergency Center
Home Health Care Agency
Independent Clinical Lab
Abortion Clinic
Diagnostic Imaging Center
Offce Surgery Center


Physician s Office

     indicates the primary licensure agency in that State does license that tye of
     facility

     a blank indicates the State does not license that tye of facility or that tye   of
     facilty does not exist in the State

     indicates there are conditions that relate to licensure of this tye
                                                                      of facilty in a
     given State and the reader should refer to the enclosed footnotes for greater
     detail

     indicates the licensure status of many or all of the facilties in a given State are
     unclear and the reader should refer to the enclosed footnotes for greater detail

                                        C - 3

TYES OF FACl AN TH NUER OF STAll HETH
         LICENSUR AGENCI THT UCENSE EACH
                                                                              FACI

TYES OF        FACl                                     STATE



Ambulatory Health Care

Clinic
Ambulatory Surgical Center
Birthing Center
Health Maintenance
Organization
Urgent/lmmediate Care

Center
Cancer Treatment Center


Cardiac Catheterization Lab
Emergency Center
Home Health Care Agency
Independent Clinical Lab
Abortion Clinic
Diagnostic Imaging Center
Offce Surgery Center


Physician s Offce

     indicates the primary licensure agency in that State does license that tye of
     facilty

     a blank indicates the State does not license that tye of facilty or that tye      of
     facilty does not exist in the State

     indicates there are conditions that relate to licensure of this tye   of facility in a
     given State and the reader should refer to the enclosed footnotes for greater
     detail

     indicates the licensure status of many or all of the facilities in a given State are
     unclear and the reader should refer to the enclosed footnotes for greater detail

                                         C - 4

TYES OF FACI               AN TH NUER OF STATE HETH FACl

                  LICENSUR AGENCIE            THT LICENSE EACH

TYES OF FACIIT                                             STATE



Ambulatory Health Care
Clinic
Ambulatory Surgical Center
Birthing Center
Health Maintenance
Organization
UrgentlImmediate Care

Center
Cancer Treatment Center


Cardiac Catheterization Lab
Emergency Center
Home Health Care Agency
Independent Clinical Lab
Abortion Clinic
Diagnostic Imaging Center
Offce Surgery Center


Physician s Offce

     indicates the primary licensure agency in that State does license that tye       of
     facilty

     a blank indicates the State does not license that tye of facilty or that tye       of
     facilty does not exist in the State

                                                                      of facilty in a
     indicates there are conditions that relate to licensure of this tye
     given State and the reader should refer to the enclosed footnotes for greater
     detail

         indicates the licensure status of many or all of the facilties in a given State are
         unclear and the reader should refer to the enclosed footnotes for greater detail

                                            C - 5

TYES OF FACI AN TH NUER OF STATE HETH                                      FACIIT

          UCENSUR AGENCI mAT LICENSE EACH

TYES OF       FACI                                      STATE


Ambulatory Health Care

Clinic
Ambulatory Surgical Center
Birthing Center
Health Maintenance
Organization
UrgentlImmediate Care

Center
Cancer Treatment Center


Cardiac Catheterization Lab
Emergency Center
Home Health Care Agency
Independent Clinical Lab
Abortion Clinic
Diagnostic Imaging Center
Offce Surgery Center


Physician s Offce

     indicates the primary licensure agency in that State does license that tye   of
     facilty

     a blank indicates the State does not license that tye of facilty or that
                                                                              tye   of
     facilty does not exist in the State

     indicates there are conditions that relate to licensure of this
                                                                     tye of facilty in a
     given State and the reader should refer to the enclosed footnotes for greater
     detail

     indicates the licensure status of many or all of the facilties in a given State are
     unclear and the reader should refer to the enclosed footnotes for greater detail


                                        C - 6

    FOOTNOTE FOR TYES OF FACI                                 AN TH NUER OF STATE
        RETI FACI LICESUR                               AGENCI THT LICENSE EACH
    Arizona - The Department of Insurance licenses HMOs.

   California - Most , if not all , of the ASCs in the State are certified while fewer than
 50% of them are licensed. Licensure and certification standards are the same for
 ASCs. Licensure of Birthing Centers and Abortion Clinics may be provided as a
 servce under a primary care clinic license (Le. a primary care clinic is non- profit and
 the patients served are Medi- Cal eligible). The State of California Department of
 Corporations licenses HMOs. The Department of Health Servce s Laboratory Field
Servces program licenses Independent Clinical Labs.

  Colorado - The Colorado Division of Insurance must grant a certificate of authority
to HMOs in order to operate legally in the State. The Health Facilities Division has a
role in regulation as the designee of the Executive Director of the Colorado
Department of Health.

    Florida - The State is currently revising           their licensure statutes.


    Georgia - The Health Care Section of the Georgia Department of Human
Resources licenses only the home health care servces that hold themselves out to the
public as Home Health Care Agencies (when care is being provided by private nursing
servces ).

  Idaho - The State licenses Home Health Care Agencies if they are for-profit
organizations. The State Department of Health and Welfare conducts Medicare
certification surveys for Ambulatory Surgical Centers and Independent Clinical Labs.

  Ilinois - Abortion Clinics and Offce Surgery Centers may be licensed if they meet
rules set out for ASCs. Home Health Agencies are licensed by the Ilinois
Department of Public Health.

   Iowa - The Department of Inspections and Appeals has a task force lookig at the
issue of licensure for ASCs. This would apply only to those ASCs where the recovery
period is over 24 hours. The State Health Facilties Division conducts Medicare
certification surveys for Ambulatory Surgical Centers.

  Kansas - The State regulates labs through Medicare certification and CLIA.
Licensing is done only for laboratories testing for
                                                        controlled substances , and pre­
natal syphils. The Department of Health and Environment , Division of Health may
license an Abortion Clinic as an ASC under certain conditions. The State does not
have separate licensing statutes pertaining to Abortion Clinics.




                                                      C ­

  Maine - The Bureau of Insurance is responsible for licensure of HMOs. The Health
and Environmental Testing Laboratory is responsible for licensure of Independent
Clinical Labs. The Division of Health Engineering, Bureau of Health is responsible
for licensure of Diagnostic Imaging Centers.

  Maryland - The Department of Health and Mental Hygiene licenses

Urgent/lmmediate Care Centers if they use the term " urgent " or " emergency" in their

advertising. Cardiac Catheterization Labs are licensed only if equipment acquisitions

costs were over $600 000. Emergency Centers are licensed only if they use the term

 emergency" or " urgent" in their advertising. Diagnostic Imaging Centers are licensed
only if equipment acquisition costs were over $600 000. The State conducts Medicare
certification surveys for Ambulatory Surgical Centers.

   Massachusetts - The Department of Public Health , Division of Health Care Quality
licenses Ambulatory Health Care Clinics , ASCs , HMOs , Urgent/lmmediate Care
Centers , Cancer Treatment Centers , Emergency Centers , Diagnostic Imaging Centers
and Abortion Clinics if they meet the statutory definition of a " clinic.

  Michigan - The Department of Public Health has a licensure program for
freestanding outpatient surgical facilities , which includes some pregnancy termination
activities.

  Minnesota - The Department of Health , Health Maintenance Organization Unit
licenses HMOs. The Health Resources Division of the Department of Health are in
the process of promulgating licensure rules for Home Health Care Agencies. The
Radiation Control Section , Environmental Health Division , in the Department of
Health licenses Diagnostic Imaging Centers.

  Missouri - The State has licensing laws that are applicable to ASCs , Abortion
Clinics , and Home Health Care Agencies but the Department of Health is responsible
for licensure of only ASCs and Abortion Clinics. The ASC licensing law encompasses
Birthing Centers but at present time they are not being   licensed.

 Montana - The Department of Health and Environmental Sciences licenses Offce
Surgery Centers if they are multi-specialty group practices.

  Nebraska - The State is preparing to revise outpatient health care clinic standards
for facilties such as ASCs.

  New Hampshire - State statutes are currently under revision and will change
dramatically in the next year. Currently all outpatient facilties are under the same set
of standards.





                                         C - 8

--




  New Jersey - The State Department of Health licenses only Medicare-certified
Home Health Care Agencies. If a physician acquires equipment which is subject to a
health planning/certificate of need requirement, licensure of the equipment is required.
(New statutory requirement 7/91)

  New York - The Bureau of Hospital Servces , State Department of Health licenses
Cardiac Catheterization Labs. The Bureau of Home Health Care Servces , State
Department of Health licenses Home Health Care Agencies. The Wadsworth Center
for Laboratories , State Department of Health licenses Independent Clinical Labs.

                 - The Division of Facilty Servces , Department of Human Resources
     North Carolina
licenses Offce Surgery Centers if they meet the definition of ASCs. There are two
Birthing Centers in the State that are licensed as ASCs.

   North Dakota - The State Department of Health is responsible for licensure of
outpatient facilities (to exclude physicians ' offices). Of these outpatient facilities that
are licensed , Home Health Care Agencies are the only one that are mentioned by
name. Present licensure rules do not include any program standards. Outpatient
facilities for purpose of licensure have not been further defined at this point in terms
of specific servces or tyes of programs.

  North Dakota - Freestanding outpatient facilties that are not part of a private
practice can be licensed. These licensed facilities have facilty standards but no
program standards. The State Department of Health conducts Medicare certification
surveys for Ambulatory Surgical Centers.

  Ohio - All HMOs are licensed by the Department of Insurance after being certified
by the Department of Health. The State Department of Health conducts Medicare
certification surveys for Ambulatory Surgical Centers.



State).
     Oklahoma - Legislation on licensure of Birthing Centers is pending. Laboratories
that test for the presence of   HN  are licensed (there are less than 20 of these in the


  Oregon - The State has Type I and Type II facilties in the State. The standards are
the same for both except for physical plant standards.

     Rhode Island - The Department of Business Regulation licenses HMOs.

     South Carolina - The Department of Insurance licenses HMOs. Birthing Centers
are licensed by the State for deliveries by midwives. The State licenses Abortion
Clinics that perform second trimester abortions.

     Utah - The authority has been given to license HMOs but there is no program in
place.



                                            C - 9

----




   Vermont - There are very few outpatient facilties in Vermont other than
 Medicare/Medicaid certified providers which are affilated with hospitals. Any other
 outpatient facilties that exist provide very limited servces.

   Vermont - The State Agency of Human Servces conducts Medicare certification
 surveys for Ambulatory Surgical Centers.

 Washington - The Home Health and Rehabiltation Survey Section of the State
Department of Health licenses Home Health Care Agencies. The Laboratory Quality
Assurance Division of the State Department of Health licenses medical test sites. The
Radiation Protection Division of the State Department of Health licenses radiation
equipment for Diagnostic Imaging Centers and all other facilties with x-ray
equipment. The Department of Health , Licensing Cluster includes both facilty and
professional licensing programs. Facilties with x-ray, nuclear, medical test sites (lab),
and pharmacy operations are subject to these licensure requirements. The State
Department of Health conducts Medicare certification surveys for Ambulatory Surgical
Centers.

  West Virginia - The Insurance Commission licenses HMOs. The Offce of Health
Facilty Licensure and Certification conducts Medicare certification surveys for
Ambulatory Surgical Centers.

       Wisconsin - The State Division of Health conducts Medicare certification surveys for
Ambulatory Surgical Centers , Home Health Care Agencies , and Independent Cliical
Labs.

   Wyoming - In 1989 the WY Legislature passed a comprehensive Health Facilty
licensure bil but did not appropriate staff or funds to implement the law. The
Department of Health has licensure authority which has not been implemented for
Ambulatory Health Care Clinics , ASCs , Birthing Centers , Urgent/lmediate Care
Centers , Emergency Centers , Home Health Care Agencies , and Diagnostic Imaging
Centers. They are not responsible for licensing the remainder of the facilities.

 Wyoming - The State Public Health Laboratory licenses laboratories. The Stat
Department of Health conducts Medicare certification surveys for Ambulatory Surgical
Centers.




                                            c;   - 10
        APPENDIX D



STATE HETH FACILIT LICENSUR AGENCIE
       STANARS FOR LICENSUR




               D -

                                                                                                                                                                                                                                              !'
                                                                                         HETH FACI UCESUR                 AGENCI STANARS FOR UCESUR
STANDARS FOR
                                                                                                                                                                                                           STATE
UCESURE                                                  STATES                                                 STATE                                            STATE
                                   A A          A C                                                                                           M N      N N NN     0 o
                                   L K          RAOTEC                                         L N A I 5K    YAEDIA
                                                                                                              IL IM:M              N 5                          N H K
                                                                                                                                                     N J M Y C ID
                                                                                                                                              T E V IH                                      R A I CD N              X T T A IWIW'WIW
                                                                                                                                                                                                                             AiVll
 Legallimiu                                        3121212\212121311                                 3 I 2   31213131312           2I3                 2 I 2         3 I 2 11          2!2121313131213121113: 3!2! li2\
 Medical ,tandards                               11312131z13 1213:211                                2 \ 2   31212131313           Z I 3
              2 I 2   3I2      3 I 1          2!21313!3131213121113! 2                            2: I' 11
 Emergency equipmenr and                                                                                                                                                                                                                     ! 1

 trained personnel

                                    3I3I3        3\212!31312:312 3! 112                           3 I 3 I 2 I 3 1 Z : 311 ' 2 11 1 2 1 3 I 3 11        3I2              3111111 31313                  3i3: 112;2! 112:z                   3' 1: 3 

 Infection control procedures
 Patient complaims                I1I3       111Iz 113:311;2,2.2:113                                 2111112 213 31112!213111211131313                                  1!113!1 2!212:2;2:2i3\111! 1: 1                                             ' 11

                                                                                                                                                                                                                                    12
 Minimum staffng                                                                                               1. :     J . .J                                                        ! 1                                                 \ 2 ' 1
 requirementS                                                                                                  I .) :            I.J
                                                                                            3 11 I 2 1: 11z121312! 11112 3: 3 I 2 i 2                                                                              ! 1 : z ! 1 II
                                  1213121113111312: 11312:2 ' 1\1131,lz 3 I 3
 2!3   212                                                                                                                    3: 1                    ! 2 ' 1 '        2 I

 Peer review
                                                               113!2121 113\2 3!3'21212'2 211121211!21213!2:1!112           3!2                112.
                                                                                                 0 !

 Transfer 3greemenlS              1212121213131313 ' 3 3!3
 Equipment standard,              I2I3 21212121312! zl3 :2 '2; 1 IZ\Z:2:  212;3; 3 2IzI2:2!31113121212 2IzI3IzII12 21212:             2:2;Z:2; 111                                                                                         2: 1

 Anesthesii: administered by                                                                                                                                                                                          i3
                                                                     !3 13 !3 !2                                          13           !2                                    ! 1 !2                          !2            1I !2    ! 2
 qualifed personnel                                                                      ! 1
 Record- keeping standards        13:31313!3! 3 i 3! 3! 3; 313 3;1\3131313 313:313;3!3\313 31312131312                                                               3131112:2 3IzI3                           3iJ          lr3:              '1:3I
 Trnininglcc:rtifcation for                                                                                                                                                                                                         12 13
                                                                                                                                                                       ! 3                                    !z
 ancilary personnel                                1 z ll 12                             1 1
 Require facilty to have
 credemialing process                                                                                                                  ! 3 13 11 12
                                              II           3:3;2, 1 3  111

 licensure   ren wal                         1 11 11 11 1 2 11 ! 1 I 2 i I        ! Z ! 1      1111111 1 i 1 : I! 3 : 2 ! 1 11 ! 1 11 11          I,   '111111       2 I' I I 11 11         I 1 11 II : 1   "1:1i,:1I1I1-I!1;1'1I
                                  II 11
The   lice sure smndards listed above relate: to outpatient facilties where surgery is
perfonned.
We have included oniy one ,et of licen,ure standard, lor each Stale, For 41 of the
States, we used Ambulatory Surgical Center licensure stand:uds. For Idaho and Nonh
Dakota. we u,ed Home Health Care Agency standard,. For Iowa , Washington. West
Virginia, and Wyoming. we u,ed Birthing Center 'tandards, For Maryland and Ohio
we u,ed HMO standard,. No 'tandard, apply for Vennont or Wi,cunsin.
E'Planation of ranking' (I, 2, or 3) i, on page' D- , D- 8, and D­
 HETH FACI               LICENSUR AGENCI STANARS FOR LICENSUR


  STANARS FOR
  UCENSUR                                               STATE



  Legal limits 




  Medical standards
  Emergency equipment and
  trained personnel
  Infection control procedures
 Patient complaints
 Minimum staffng
 requirements
 Peer review
 Transfer agreements
 Equipment standards
 Anesthesia administered by
 qualified personnel
 Record- keeping standards
 Training/certification for

 ancilary personnel
 Require facilty to have a
 credentialing process
 Licensure renewal

The licensure standards listed above relate to outpatient facilties where surgery
performed.

We have included only one set of licensure standards for each State. For 41 of the
States , we used Ambulatory Surgical Center licensure standards. For Idaho and North
Dakota , we used Home Health Care Agency standards. For Iowa , Washington , West
Virginia , and Wyoming, we used Birthing Center standards. For Maryland and Ohio
we used HMO standards. No standards apply for Vermont or Wisconsin.

Explanation of rankings (1, 2, or 3) is on pages D- , D- , and D­

                                         D-3
 HETH FACI liCENSUR AGENCI STANARS FOR liCENSUR
  STANARS FOR
  LICENSUR                                              STATE



  Legal limits 




  Medical standards
 Emergency equipment and
 trained personnel
  Infection control procedures
 Patient complaints
 Minimum staffng
 requirements
 Peer review


 Transfer agreements
 Equipment standards
 Anesthesia administered by
 qualified personnel
 Record- keeping standards
 Training/certifcation for
 ancilary personnel
 Require facilty to have a
 credentiaIing process
 Licensure renewal

The licensure standards listed above relate to outpatient facilties where surgery
performed.

We have included only one set of licensure standards for each State. For 41 of the
States , we used Ambulatory Surgical Center licensure standards. For Idaho and North
Dakota , we used Home Health Care Agency standards. For Iowa , Washington , West
Virginia , and Wyoming, we used Birthing Center standards. For Maryland and Ohio
we used HMO standards. No standards apply for Vermont or Wisconsin.

Explanation of rankings (1, 2, or 3) is on pages D- , D- , and D­


                                         D-4
 HETH FACi               LICENSUR AGENCI STANARS FOR liCESUR


 STANARS FOR
 liCENSUR                                                STATE



 Legal limits 




 Medical standards
 Emergency equipment and
 trained personnel
 Infection control procedures
 Patient complaints
 Minimum staffng
 requirements
 Peer review


 Transfer agreements
 Equipment standards
 Anesthesia administered by
 qualified personnel
 Record- keeping standards
 Training/certification for

 ancilary personnel
 Require facilty to have a
 credentialing process
 Licensure renewal

The licensure standards listed above relate to outpatient facilties where surgery
performed.

We have included only one set of licensure standards for each State. For 41 of the
States , we used Ambulatory Surgical Center licensure standards. For Idaho and North
Dakota , we used Home Health Care Agency standards. For Iowa , Washigton , West
Virginia , and Wyoming, we used Birthing Center standards. For Maryland and Ohio
we used HMO standards. No standards apply for Vermont or Wisconsin.

Explanation of rankings (1 , 2 , or 3) is on pages D- , D- , and D­

                                          D-5
 HETH FACIIT UCENSUR AGENCI STANARS FOR UCESUR

 STANARS FOR
 LICENSUR                                               STATE



 Legal limits
 Medical standards
 Emergency equipment and
 trained personnel
 Infection control procedures
 Patient complaints
 Minimum staffng
 requirements
 Peer review


 Transfer agreements
 Equipment standards
 Anesthesia administered by
 qualified personnel
 Record-keeping standards
 Training/certification for

 ancilary personnel
 Require facilty to have a
 credentialing process
 Licensure renewal

The licensure standards listed above relate to outpatient facilties where surgery is
performed.

We have included only one set of licensure standards for each State. For 41 of the
States , we used Ambulatory Surgical Center licensure standards. For Idaho and North
Dakota , we used Home Health Care Agency standards. For Iowa , Washington , West
Virginia , and Wyoming, we used Birthing Center standards. For Maryland and Ohio
we used HMO standards. No standards apply for Vermont or Wisconsin.

Exlanation of rankings (1 , 2, or 3) is on pages D- , D- , and D­


                                         D-6
 HETH FACI                      LICENSUR AGENCIE STANARS FOR UCENSUR

Legal limits 


1 - No standards apply or the information received was incomplete.
2 - Guidelines for patient care , such as tye of anesthesia allowed or length of stay,
            are listed as requirements for licensure.
3-          In addition to the guidelines listed above , the governing body of each licensed
            facilty is required to establish a list of procedures that can be legally performed
            in that setting.



Medical standards

1 - No standards apply or the information received was incomplete.

2 - The health facility licensure agency requires that surgical procedures be
            performed by physicians who are licensed in that State.
3-          The health facility licensure agency requires that surgical procedures be
            performed by physicians who are licensed in that State and requires that
            physicians be granted privileges to perform those procedures by the facilty.

Emergency equipment and trained personnel
1 - No standards apply or the information received was incomplete.
2 - Licensure standards address the presence of emergency equipment or the
     presence of personnel trained in emergency procedures.
3-   Licensure standards address the presence of emergency equipment and
     presence of personnel trained in emergency procedures in great detail.

Infection control procedures

1 - No standards apply or the information received was incomplete.

2 -         Licensure standards for infection control procedures exist but are not    explained
            in great detail.
3-          Licensure standards for infection control procedures are explicit and may
            include designated committees that provide oversight in this area.

Patient complaints
1 - No standards apply or the information received was incomplete.
2 - The health facilty licensure agency requires the facilty to have a           process in
            place to receive patient complaints but does not go into great detail.
3-          The health facility licensure agency requires the facility to have a specific
            process in place to receive patient complaints.





                                               D ­

Minimum staffing requirements
1 - No standards apply or the information received was incomplete.
2 - The health facilty licensure agency requires the facility to have established a
     minimum staff requirement for qualified personnel to be onsite during the
     hours of operation.
3-   The health facilty licensure agency requires the facilty to have established a
     minimum staff requirement for qualified personnel and a physician or a
      registered nurse to be onsite during the hours of operation.

Peer review

1 - No standards apply or the information received was incomplete.
2 - Licensure standards require the facility to have some form of internal peer
      reVIew.
3-    Licensure standards require the facilty to have some form of internal peer
      review within specified time frames.

Transfer agreements

1 - No standards apply or the information received was incomplete.

2 - The health facilty licensure agency requires that the facility have a wrtten
      patient transfer agreement with a hospital that is located nearby.
3-    The health facility licensure   agency requires that the   facility have a wrtten
      patient transfer agreement with a hospital that is located nearby; or it requires
      the physicians from that facilty to have admitting/staff privileges at a local
      hospital.

Equipment standards

1 - No standards apply or the information received was incomplete.

2-   Licensure standards require that all equipment be inspected , maintained , and
     calibrated.
3-   Licensure standards require that all equipment be inspected , maintained , and
     calibrated within specified time frames.

Anesthesia administered by qualified personnel

1 - No standards apply or the information received was incomplete.

2 -   Licensure standards require that anesthesia be administered by qualified
      personnel.
3-    Licensure standards require that anesthesia be administered by qualified
      personnel with specific provisions in place for the administration of a general
      anesthetic.

Record- keeping standards
1 - No standards apply or the information received was incomplete.
2 -   Licensure standards require the facility to have patient records which contain
      personal and medical information for each patient.
3-    Licensure standards require the facilty to have patient records which contain
      personal and medical information and a post-operative report for each patient.


                                           D - 8

*=


Training/certifcation for ancilary personnel

1 - No standards apply or the information received was incomplete.

2 - The health facility licensure agency requires that the ancilary personnel
       employed in the facility are qualified for their position through previous training
       or certification.
3-     The health facility licensureagency requires that the ancilary personnel
       employed in the facilty are qualified for their position through previous training
       or certification. These employees must also be CPR certified and take part in
       continuing education courses.

Require facilty to have a credentialing process

1 - No standards apply or the information received was incomplete.

2 - The health facilty licensure agency requires the facilty to have a credentialing
      process in place to review the credentials of potential professional staff but
      does not specify whose role this is or the credentialing process.
3-    The health facility licensure agency requires the facility to have a credentialing
      process in place to review the credentials of potential professional staff. The
      accrediting body specifies whose role this is and lists the criteria used in the
       credentialing process.


Licensure renewal
1=    Annual renewal
2=    Biennial renewal
       Renewal periods vary depending on the tye     of facilty that is being licensed




                                          D - 9

       APPENDIX E


STATE MEDICAL AN OSTEOPATHC BOARS
     STANARS FOR LICENSUR





              E -

                                                                    ,; )                                   -.__           -=-    -!_                        )-)"   ) )           ) ) )           -'
                                                                                                                                                                                                 ::          :':: ;: :!        :! :!       -..-
                                                                                                                                                                                                                                             :: :: ::
                                                                                                                                  STAlE MEDIC,IL IID      osmor/Il IIC nOARDS

                                                                                                                                              ST,\NDARDS fOR UCfiStJRE

  STIIDIIRDS FOR
  LICENSURE                         I":A'"
                                    :L- K;Z
                                            A A" C C C C D D F
                                                     0 T E C L ;J. IGIH                                                           M M1M M;M'M M M' M;N N N N N N N'N_ N:N:01oio' o.r P - R S ' S T T                                   T   U V V W W W W-Ww
                                              R A
                                                                                                                                AiE .6:DA , I S O      V )1jH J M M:Y!C          R;A         !D N -                                        T T II A A V )1i
  Minimum siandan.ls for
  licensure
                                                                           .2   J j JIJ                                    1:3 j 3. 313 ) 3 3                                            '3,   3:33- ):3,3          ) 3 3   ) ) 3      J J 3 J      !3J   JJ
  legal Jimils                      I l I
                                   12:2,
                                             ' L Z I I                            1 2
           2::: Jfl!l       .2 2.    2:1 1 .2 I;:L                       I 2 ! l I 1                l : 2 1 2; I      I I :: :: l J              !   2          I I:
J Mcdic4:1 standards
i Emergency procedures                                                                   12 2:1 ::2                                    :: 1                           'J                  J ;:              J:I: l ;:. 2 1 J I               :! I.:: I ' 2:! I
                                                                                         I 2,   ; I I .2!.2: l 2 .2 .2 t
                                                                                                                                                               :! I
                                                                                                                                                          :! :! I I     II                I . :: : I I.   1 . t III                                  II
                                                                                                                                                                                                                                                   I -
  Infection caMlrol procedures        l 2      .2 Z .2 I I                                                                                              2 ) :! 2 I I    II                I :: , I I' I ,           II      :: :: 2        1 2 I::: J 1 l
! P alicni complainl5
flicensure rc:nt:wul
STATE "" Medic:'1 buard
                                   TII:
                                     J J     ' J :: .2 :: ,; .; :: :: :: .2 J i J :
                                                                                    J 'j
                                                                                        2!2
                                                                                                      3   'JJj                    .2 2 J
                                                                                                                                              ! :! ' )1111-;' ;: 1 I ;: 3 i
                                                                                                                                                                                               J.J J
                                                                                                                                                                                          2 ' :: I ::
                                                                                                                                                                                                         J J .1 .1 J 2 J J J
                                                                                                                                                                                                        'II        .1tI                    't .. ,J I)
                                                                                                                                                                                                                                       J J J J 
          ;: 2 J
                                                                                                                                                                                                                                                             't ..

SI - Ostcop:llhic board
  pl:Jn:Jliun uf r:nkin s (1. !. IJr J) is un p3       :.mJ E.
A blank imJicDlcs Ihe Simc h:ls nOI responded or :hcrc arc nu SI:1m..I:WJs
                                                                         (hou :Ipply.
. The Tcnncst:c O:ueup:l1hic Bunn.I uf       1'edicinc did nUt respnnd.
                  STATE MEDICAL AN OSTEOPATHC BOARS
                            STANARS FOR LICENSUR

 STANARS FOR

 LICENSUR


 Minimum standards for

 licensure

 Legal limits 




 Medical standards

 Emergency procedures

 Infection control procedures

 Patient complaints
 Licensure renewal

STATE = Medical board
STATE = Osteopathic board

Explanation of rankings (1 , 2 , or 3) is on pages E- 8 and E­

A blank indicates the State has not responded or there are no standards that apply.




                                           E - 3

                 STATE MEDICAL AN OSTEOPATIC BOARS
                           STANARS FOR LICENSUR

 STANARS FOR

 LICENSUR


 Minimum standards for

 licensure

 Legal limits
 Medical standards

 Emergency procedures

 Infection control procedures

 Patient complaints
 Licensure renewal

STATE = Medical board
STATE = Osteopathic board

Explanation of rankings (1, 2 , or 3) is on pages E- 8 and E­

A blank indicates the State has not responded or there are no standards that apply.




                                          E - 4

                  STATE MEDICAL AN OSTEOPATHC BOARS
                           STANARS FOR LICENSUR

 STANARS FOR

 LICENSUR


 Minimum standards for

 licensure

 Legal limits 




 Medical standards

 Emergency procedures

 Infection control procedures

 Patient complaints
 Licensure renewal

STATE = Medical board
STATE = Osteopathic board

Explanation of rankings (1, 2 , or 3) is on pages E- 8 and E­

A blank indicates the State has not responded or there are no standards that apply.




                                          E - 5

                  STATE MEDICAL AN OSTEOPATHC BOARS
                           STANARS FOR LICENSUR

 STANARS FOR

 LICENSUR


 Minimum standards for

 licensure

 Legal limits 




 Medical standards

 Emergency procedures

 Infection control procedures

 Patient complaints
 Licensure renewal

STATE = Medical board
STATE = Osteopathic board

Explanation of rankings (1, 2 , or 3) is on pages E- 8 and E­

A blank indicates the State has not responded or there are no standards that apply.




                                          E - 6

                 STATE MEDICAL AN OSTEOPATHC BOARS
                           STANARS FOR LICENSUR

 STANARS FOR

 LICENSUR


 Minimum standards for

 licensure

 Legal limits
 Medical standards

 Emergency procedures

 Infection control procedures

 Patient complaints
 Licensure renewal

STATE = Medical board
STATE = Osteopathic board

Explanation of rankings (1 , 2 , or 3) is on pages E- 8 and E­

A blank indicates the State has not responded or there are no standards that apply.

* The Tennessee    Osteopathic Board of Medicine did not respond.




                                           E - 7

                     STATE MEDICAL AN OSTEOPATHC BOARS
                                STANARS FOR LICESUR

Minimum standards for licensure
1 - No standards apply or the information received was incomplete.
2 - Candidates for licensure must be graduates of an approved or accredited
     medical or osteopathic school , must have passed National Boards (or
     equivalent), and must have passed State licensure exam.
3-          Candidates for licensure must be graduates of an approved or accredited
            medical or osteopathic school , must have passed National Boards (or
            equivalent), must have passed State licensure exam , and must have completed
            at least one year of postgraduate training (internship, residency,   or equivalent).


Legal limits 


1 - No standards apply or the information received was incomplete.
2 - Licensed practitioners are required to adhere to at least minimal "standards of
            care " that have been established.
3-          Licensed practitioners are prohibited from performing certain specific
            procedures that do not adhere to minimal " standards of care.

Medical standards

1 - No standards apply or the information received was incomplete.

2 -        Education and medical standards (including continuing medical education) is
           referenced in the State s rules and regulations.
3-         Specific subjects and courses of study that are   required for licensure are listed
           in the State s rules and regulations.

Emergency procedures
1 - No standards apply or the information received was incomplete.
2 - Knowledge of emergency procedures (such as CPR) is considered to be part of
     the education , training, or examination process. The Board considers it to be
     an indirect requirement for licensure.
3-         Knowledge of emergency procedures is a direct requirement for         licensure.


Infection control procedures
1 - No standards apply or the information received was incomplete.
2 - Knowledge of infection control procedures is considered to be part              of the
           education , training, or examination process. The Board considers it to be an
           indirect requirement for licensure.
3-         Knowledge of infection control procedures is a direct requirement for licensure.




                                              E - 8

Patient complaints

1 - No standards apply or the information received was incomplete.

2 - Members of the Board receive and investigate patient complaints.

3 - There is a specific unit or office within the Board that is designed solely to

       receive and investigate patient complaints.

Licensure renewal
1 -   Licenses are renewed annually.
2 -   Licenses are renewed biennially.
3 -   Licenses are renewed triennially.




                                          E - 9

           APPENDIX 


STATE PODIATRY BOARS   STANARS FOR LICENSUR





                   F - 1

                                                - , - ! - .,.,     !.                            ,'
                                                                                                 :?                      :!           :,                 " ,.'
                           '."""
                                                                                                                 STATE PODIATRY BOARDS STANDARS FOR LICENSURE
ji STANDARDS
   LICESUR FOR
                                         iA A            A:A!C!C C D D F- G              H       I: I                - K; L M M M:M.M M M M:N                       NjO
                                           L K ZiR;A
                                                          :i
                                                                    O T EC L
                                                                                                         I: I:
                                                                                                 D:L:N:A S Y A E              D A-    S O T E            INi Y C,     H K 'RiA      CDNXTTAAV
: Minimum st::mdards for
  licensure                              r3              3'2'3I2               2I3   3 : 3              :2 2                               3.2    212          3:3, 112,
     gal limits
iL                                                         2.3                       3 3                             2:3                      2 3  '3: 2:313 3 2!2!2il 2!2
: Medical sumdards                                                                               1;3     1I2;3,2'             2 2      2'1:2      2!li2 1!2 2:211:2:1 1!2
  Emergency procedure,                          2 f 2      2 ; 2                ;I                       1 ! 2 ! 2 1: 1                   I!I_    li2!1!liI 2:2 1:l llil                          1 1
  Infection comrol p rocc:uures          ;2     2'2I2                          J 3               1;2     1:2:22iI             2 2.   l ' 2.l:1!2;1;2:1 IIi 2 I;      :1I2
                                                                                                                                                                    2 ! 1 IIi I                   2 1
  Patient complaints                              2:3'3                        2 3                       3 I :! 1   33               3 1:3i2j2    3:2;2!2!3 1:2:3 3;1 3i2                         3 2
: Licensure renewal                             2.         1.,                                           2 I 1 i 1    1: 1                       12I   !:! 1:3 1:)        1:2 2:2                 2, 1
STATE         Podiatry board
Explam:uion       - r nkings (I. 2. or 3) is on pagc:s           am.! F­
A blank indicates the State has not respunded or thc:re are no sl:ndmus Ihal apply.
. The Strite of Delaware has imlic:ned thoU Ihdr rules ami n:(!ul:uinm; hOl\' bt:en
re\'ised and wil go into elTect lit the: end of Februal! of this   e;)r. The licensure
smnd:::ds listed aho\' e for Dc:lilU':Jre represenl the rules :md regulations that \\' t:re in
place prior to chis re",'ision.
                  STATE PODIATRY BOARS       STANARS FOR LICENSUR


 STANARS FOR

 LICENSUR


 Minimum standards for
 licensure
 Legal limits 




 Medical standards
 Emergency procedures
 Infection control procedures
 Patient complaints
 Licensure renewal

STATE = Podiatry board

Explanation of rankings (1 , 2 , or 3) is on pages F- 7 and F­

A blank indicates the State has not responded or there are no standards that apply.

* The State of Delaware has indicated that their rules and regulations have been
revised and will go into effect at the end of February of this year. The licensure
standards listed above for Delaware represent the rules and regulations that were in
place prior to this revision.




                                           F - 3

                  STATE PODIAlRY      BOARS STANARS FOR LICENSUR

 STANARS FOR

 LICENSUR


 Minimum standards for

 licensure

 Legal limits 




 Medical standards

 Emergency procedures

 Infection control procedures

 Patient complaints
 Licensure renewal

STATE = Podiatry board

Explanation of ran kings   (1 ,   2 , or 3) is on pages F- 7 and F­

A blank indicates the State has not responded or there are no standards that apply.




                                                F - 4

          STATE PODIATRY BOARS STANARS FOR LICENSUR


 STANARS FOR

 LICENSUR


 Minimum standards for

 licensure

 Legal limits
 Medical standards

 Emergency procedures

 Infection control procedures

 Patient complaints

 Licensure renewal


STATE = Podiatry board

Explanation of ran kings   (1 ,   2 , or 3) is on pages F- 7 and F­

A blank indicates the State has not responded or there are no standards that apply.




                                                F - 5

                  STATE PODIATRY BOARS STANARS FOR LICENSUR


 STANARS FOR

 LICENSUR


 Minimum standards for

 licensure

 Legal limits 




 Medical standards

 Emergency procedures

 Infection control procedures

 Patient complaints


 Licensure renewal

STATE = Podiatry board

Explanation of rankings (1 , 2 , or 3) is on pages F- 7 and F­

A blank indicates the State has not responded or there are no standards that apply.




                                           F - 6

          STATE PODIAlRY        BOARS STANARS FOR LICENSUR

Minimum standards for licensure

1 - No standards apply or the information received was incomplete.

2 - Candidates for licensure must be graduates of an approved or accredited
     podiatry school , must have passed National Boards (or equivalent), and must
       have passed State licensure exam.
3-     Candidates for licensure must be graduates of an approved or accredited
       podiatry school ,
                       must have passed National Boards (or equivalent), must have
       passed State licensure exam , and must have completed at least one year of
       postgraduate training (internship, preceptorship, or equivalent).

Legal limits

1 - No standards apply or the information received was incomplete.

2 - Licensed practitioners are required to adhere to written guidelines    for the parts
       of the human foot that a podiatrist can treat.
3-     Licensed practitioners are restricted from performing amputations and/or are
       prohibited from administering anesthetics other than local anesthetic.

Medical standards

1 - No standards apply or the information received was incomplete.

2 - Education and medical standards (including continuing medical education) is
      referenced in the State s rules and regulations.
3-    Specific subjects and courses of study that are required for licensure are listed
      in the State s rules and regulations.

Emergency procedures
1 - No standards apply or the information received was incomplete.
2 -    Knowledge of emergency procedures (such as CPR) is considered to be part of
       the education , training, or examination process. The Board considers it to be
       an indirect requirement for licensure.
3-     Knowledge of emergency procedures is a direct requirement for licensure.

Infection control procedures
1 - No standards apply or the information received was incomplete.
2 -    Knowledge of infection control procedures is considered to be part of the
       education , training, or examination process. The Board considers it to be an
       indirect requirement for licensure.
3-     Knowledge of infection control procedures is a direct requirement for licensure.

Patient complaints

1 - No standards apply or the information received was incomplete.

2 - Members of the Board receive and investigate patient complaints.
3 - There is a specific unit or office within the Board that is designed solely to
       receive and investigate patient complaints.


                                           F-7
Licensure renewal
1 -   Licenses are renewed annually.
2 -   Licenses are renewed biennially.
3 -   Licenses are renewed triennially.




                                          F - 8

                              APPENDIX G

                 ACCRDITATION ASOCTION STANARS

 STANARS                                               AAC AAF                JCAHO
 Legal limits
 Medical standards

 Emergency equipment and trained personnel

 Infection control procedures

 Patient complaints
 Minimum staffng requirements
 Peer review


 Transfer agreements

 Equipment standards

 Anesthesia administered by qualified personnel

 Record- keeping standards

 Training/certifcation for ancilary personnel

 Require facility to have a credentialing process

 Accreditation renewal


AAC - Accreditation Association for Ambulatory Health Care
AASF - Accreditation Association for Podiatric Surgical Facilities
JCAHO - Joint Commission on the Accreditation of Healthcare Organizations


Legal limits
1 - No standards apply or the information received was incomplete.
2 - Procedures that can be performed are established by the facility or the
      physician s practice and are examined as part of the accreditation process.
3-    The accreditation association establishes their own list of procedures that can
      be performed in each setting.




                                         G - 1

Medical standards
1 - No standards apply or the information received was incomplete.
2 - The accreditation association requires that surgical procedures be performed by
       physicians who are licensed in that State.
3-     The accreditation association requires that surgical procedures be performed by
       physicians who are licensed in that State and physicians must have been
       granted privileges to perform those procedures by the facilty.
Emergency equipment and trained personnel

1 - No standards apply or the information received was incomplete.

2 - Accreditation standards address the presence of emergency equipment or the
       presence of personnel trained in emergency procedures.
3-     Accreditation standards address the presence of emergency equipment and
       presence of personnel trained in emergency procedures in great detail.

Infection control procedures

1 -   No standards apply or the information received was incomplete.

2 -   Accreditation standards for infection control procedures exist but are not
      explained in great detail.
3-    Accreditation standards for infection control procedures are explicit.

Patient complaints

1 - No standards apply or the information received was incomplete.

2 - The accreditation association requires the facilty to have a process in place to
      receive patient complaints but does not go into great detail.
3-    The accreditation association requires the facilty to have a specific process in
      place to receive patient complaints.



Minimum staffing requirements
1 - No standards apply or the information received was incomplete.
2 - The accreditation association requires the facilty to have established a
      minimum staff requirement for qualified personnel to be onsite during the
      hours of operation.
3-    The accreditation association requires the facilty to have established a
      minimum staff requirement for qualified personnel and a physician or an
      anesthesiologist to be onsite during the hours of operation.

Peer review

1 - No standards apply or the information received was incomplete.
2 - Accreditation standards require the facility to have some form of internal peer
      review for quality assurance.
3-    Accreditation standards require the facilty to have some form of internal peer
      review with specific time frames mentioned.




                                        G - 2

Transfer agreements
1 - No standards apply or the information received was incomplete.
2 - The accreditation association requires that the facilty have a wrtten patient
       transfer agreement with a hospital that is located nearby.
3-     The accreditation association   requires that the facility have a wrtten patient
       transfer agreement with a hospital that is located nearby or it requires the
       physicians from that facility to have admitting/staff privileges at a local hospital.

Equipment standards

1 - No standards apply or the information received was incomplete.

2 - Accreditation standards require that all equipment be inspected, maintained
       and calibrated.
3-     Accreditation standards require that all equipment be inspected , maintained
       and calibrated within specified time frames.

Anesthesia administered bv qualified personnel

1 - No standards apply or the information received was incomplete.

2 - Accreditation standards require that anesthesia be administered by qualified
      personnel.
3-    Accreditation standards require that anesthesia be administered by qualified
      personnel with specific provisions in place for the administration of a general
      anesthetic.

Record- keeping standards

1 - No standards apply or the information received was incomplete.

2 -    Accreditation standards require the facility to have patient records which
       contain personal and medical information for each patient.
3-     Accreditation standards require the facility to have patient records which
       contain personal and medical information and a post-operative report for each
       patient.

Training/certification for ancilarY personne

1 - No standards apply or the information received was incomplete. 

2 - The accreditation association       requires that the ancilary personnel employed in
       the facility are qualified for their position through previous training or
       certification.
3-     The accreditation association requires that the ancilary personnel employed in
       the facility are qualified for their position through previous training or
       certifcation , that these employees are CPR certified , and that these employees
       take part in continuing education courses.




                                           G- 3

Require facility to have a credentialing process
1 - No standards apply or the information received was incomplete.
2 - The accreditation association requires the facilty to have a credentialing
      process in place to review the credentials of potential professional staff but
      does not specif whose role this is or the criteria involved in the credentialing
      process.
3-    The accreditation association requires the facility to have a credentialing
      process in place to review the credentials of potential professional staff. The
      accrediting body specifies whose role this is and lists the criteria used in the
       credentialing process.



Accreditation renewal

  AAC - An organization can be accredited for three years if it is in substantial
compliance with the standards.   An organization can be accredited for one year if it is
in substantial compliance with the standards but compliance does not appear to be
well-established or the organization s commitment to one or more of the standards
appears to be short- lived. Accreditation can be deferred for six months for those
facilities that have the commitment and the capabilty to correct identified deficiencies
so that they are in substantial compliance with the standards. Accreditation can also
be denied to those facilties that are not in substantial compliance with the standards.

  AASF - An organization can be accredited for three years if it is in substantial
compliance with the standards. An organization can be accredited for less than three
years if it is in substantial compliance with the standards but compliance does not
appear to be well-established or the organization s commitment to one or more of the
standards appears to be short- lived. Accreditation can be deferred for six months for
those facilities that have the commitment and the capabilty to correct identified
deficiencies so that they are in substantial compliance with the standards.
Accreditation can also be denied to those facilities that are not in substantial
compliance with the standards.

  JCAHO - An organization can be accredited for three years if it is in substantial
compliance with the standards. This   award may be accompanied by specific citations
or Type I recommendations. Organizations with Type I recommendations        must
demonstrate compliance with specified time frames or risk the loss of accreditation.
Organizations not in substantial compliance with standards may become conditionally
accredited or not accredited. Conditionally accredited organizations   must submit a
Plan of Correction and are subject to a follow-up survey in six months.




                                         G- 4

                             APPENDIX H

         ADDmONAL ACCRDITATION ASOCTION STANARS
Unannuned or uncheduled
Accreditation Association for Ambulatory Health Care      (AAC)
        An accredited organization may be re-surveyed with or without advance notice
       at any time at the discretion of the_ AAC.     No fee shall be charged the
       organization when such a resurvey is initiated at the discretion of the AAC.
       If an accredited organization is surveyed by the   AAC      and is judged not to
       be in substantial compliance with the standards , its accreditation wil be
       revoked.


Accreditation Association for Podiatric Surgical   Facilties   (AASF)
       The AASF conducts       two tyes of  visits. Scheduled visits are always performed
       for initial accreditation and renewal of accreditation. Unscheduled visits are a
       means of following up on facilities that had questionable deficiencies with the
       survey. These facilities are notified of the time period in which another visit
       will be made but the exact date and time of the visit are not given.


Joint Commission on Accreditation of Healthcare Organizations (JCAHO)

       The JCAHO conducts     three tyes of visits. Scheduled visits are always
       performed for the initial full survey, renewal full survey, and for focused visits
       (a survey to see that Type 1 recommendations have been resolved).
       Unannounced visits involve a survey team arriving for an inspection without
                                        facility. This tye of visit is for the more severe
       giving prior notification to the 

       cases (the level of severity is based upon the perceived threat to patient safety).
       Unscheduled visits are for the less severe cases. These involve giving the
       facility 24 to 48 hours notice prior to the visit. The latter two tyes of visits
       usually take place as a result of information received indicating non-compliance
       patient complaints , or media issues.




                                            H ­

Puli   release of   informtin
Accreditation Association for Ambulatory Health Care      (AAC)
           the AAC will not release any information obtained through the         survey
       without the   organization s wrtten authorization.
                                                          II Survey findings are released
       to the organization only. The general public    may call the    AAC offce to
       request information on the accreditation status of               The AAC does
                                                               facilties.
       not provide press releases or wrtten directories.


Accreditation Association for Podiatric Surgical   Facilties   (AASF)
        Except as required by law, the AASF will not release any information
       obtained through the survey of an organization without the facilty' s wrtten
       authoriation. Consequently, the contents of the survey report , the survey team
       findings , and the accreditation decision are provided only to the participating
       facility and are disseminated solely at its discretion. " There is no directory or
       media release of information.


Joint Commission on Accreditation of Healthcare Organizations (JCAHO)

       The JCAHO does not publish survey findings or accreditation status. A
       facilty s accreditation status and accreditation history are available upon
       request by the public. Survey   findings go the Health Care Financing
       Administration and to State agencies if required by law (if the State requires
       accreditation for licensure).




                                           H- 2

